No. 20-222

In the Supreme Court of the Anited States

GOLDMAN SACHS GROUP, INC., et al., PETITIONERS,
v.

ARKANSAS TEACHER RETIREMENT SYSTEM, et al.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Christopher E. Duffy, a
member of the Bar of this Court and an attorney for amicus curiae the Society for
Corporate Governance, hereby certify that the “Brief of the Society for Corporate
Governance as Amicus Curiae in Support of Petitioners” filed in the above-captioned
matter contains 4,461 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Ca é OL

Christopher E. Duffy
Counsel for Amicus Curiae

Executed on September 24, 2020.
